Orrick, Herrington & Sutcliffe LLP

51 West 52nd Street
New York, NY 10019-6142
+1 212 506 5000
orrick.com

April 12, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

Unicolors, Inc. v. H&M Hennes & Mauritz, L.P., et al., No. 20-915

Dear Mr. Harris,
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned case
respectfully requests that the Court delay distribution of the petition for a writ of certiorari by
13 days, which will delay consideration of the petition by one conference. The petition is
currently scheduled for distribution no earlier than April 21, 2021 for the May 13, 2021
conference. If this Court were to grant the requested 13-day delay, distribution of the petition
would occur no earlier than May 4, 2021. The conference date would then be May 20, 2021.
Petitioner requires the additional time to file the reply due to the logistical difficulties and
dislocations caused by the COVID-19 pandemic, including the need to coordinate among
separate law offices each operating remotely. Counsel for Respondents has authorized us to
represent that Respondents do not object to the requested delay in distribution.
Very truly yours,
/s/ E. Joshua Rosenkranz
E. Joshua Rosenkranz
Counsel of Record for Unicolors, Inc.
cc:
Staci Jennifer Riordan
Dale Alfred Hudson
Neal James Gauger
Nixon Peabody LLP
300 S. Grand Avenue, 41st Floor
Los Angeles, California 90071
sriordan@nixonpeabody.com

